August 2005
Report No. 05-029



  Contract Solicitation and Evaluation



             AUDIT REPORT
                                                                                         Report No. 05-029
                                                                                              August 2005

                                             Contract Solicitation and Evaluation

                                             Results of Audit
                                             Based on our review of a sample of 17 competitive contracts and
Background and Purpose of                    6 noncompetitive procurements that had been awarded from October 1,
                                             2003 through January 4, 2005, we determined that ASB generally
Audit
                                             complied with the APM’s solicitation and evaluation requirements. The
                                             17 competitive contracts were valued from $2 million to $26.4 million,
The FDIC Division of Administration’s        while the 6 noncompetitive contracts were valued from $158,000 to
(DOA) Acquisition Services Branch            $1.2 million.
(ASB) has overall responsibility for the
acquisition process. The FDIC                Furthermore, ASB achieved adequate price competition for the purpose
Acquisition Policy Manual (APM)              of obtaining fair and reasonable prices. However, the FDIC did not
describes the FDIC’s acquisition process     always request price reductions on contracts awarded through GSA’s
and contains guidance related to the         MAS program. Requesting price reductions from MAS contractors
solicitation and award of contracts for      could result in more favorable pricing due to market fluctuations that
goods and services to ensure the best        cause discounts to be offered.
value for the FDIC.
                                             We have issued a separate memorandum to management regarding
In addition to contracting independently,    improvements needed in the documentation of solicitation activities and
the FDIC has the option to obtain goods      market research. The improvements are related to isolated instances of
and services by placing orders against       noncompliance with documentation requirements that did not warrant
the General Services Administration’s        recommendations or inclusion in the report.
(GSA) Multiple Award Schedule (MAS)
contracts. MAS contractors may accept        Recommendation and Management Response
any size order; however, each MAS
contract has an established maximum          DOA should revise the APM to require the Contracting Officer (CO) to
order threshold. The maximum order           seek price reductions on contracts awarded through GSA’s MAS
threshold is the dollar-value threshold at   program unless there are extenuating circumstances, or based on price
which the ordering activity must seek        analysis or other assessment, the CO determines that the MAS contract
additional price reductions. GSA also        price represents the best value at the lowest possible price. In such
advises ordering activities to seek price    cases, the CO should be required to document the reason for not
reductions when the maximum order            seeking a price reduction.
threshold has not been reached but
requirements warrant a reduction in          DOA did not agree that the APM should be modified. However, DOA
price.                                       agreed that the CO must adequately document the basis for determining
                                             that prices are fair and reasonable and represent the best value for the
The objective of this audit was to           FDIC. DOA has reminded the COs of their responsibility to evaluate
determine if the FDIC (1) achieved           and document price evaluations and has established a training program
adequate price competition in its            related to price evaluation. DOA’s alternative corrective actions are
contract solicitation process in order to    responsive.
obtain fair and reasonable prices for
goods and services and (2) complied           APM Requirements for Price Reductions
with the APM solicitation and proposal        Before placing an order, the Contracting Officer may but is not
evaluation requirements.                      required to: “Seek price reductions from the schedule
                                              contractor(s) appearing to provide the best value (considering
                                              price and other factors); and place the order with the schedule
                                              contractor that provides the best value and results in the lowest
                                              overall cost alternative after seeking price reductions. If further
To view the full report, go to
                                              price reductions are not offered, an order may still be placed, if
www.fdicig.gov/2005reports.asp                the Contracting Officer determines that it is appropriate.”
                            TABLE OF CONTENTS


BACKGROUND                                          1

RESULTS OF AUDIT                                    3

REQUESTING PRICE REDUCTIONS ON GSA MAS CONTRACTS   3
    Guidance for Seeking Price Discounts           3
    FDIC MAS Contract Awards                       4
    Recommendation                                 5

CORPORATION COMMENTS AND OIG EVALUATION             5

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY       6

APPENDIX II: SAMPLE SELECTION                       8

APPENDIX III: CORPORATION COMMENTS                 10

APPENDIX IV: MANAGEMENT RESPONSE TO                13
             RECOMMENDATION

TABLES

Table 1: Competitive Contracts Sampled             8
Table 2: Noncompetitive Contracts Sampled          9
Federal Deposit Insurance Corporation                                                            Office of Audits
801 17th Street NW, Washington, DC 20434                                            Office of Inspector General


DATE:                                August 11, 2005

MEMORANDUM TO:                       Arleas Upton Kea, Director
                                     Division of Administration



FROM:                                Russell A. Rau [Original signed by Stephen M. Beard for Russell A. Rau]
                                     Assistant Inspector General for Audits

SUBJECT:                             Contract Solicitation and Evaluation
                                     (Report No. 05-029)


This report presents the results of the Federal Deposit Insurance Corporation (FDIC) Office
of Inspector General’s (OIG) audit of contract solicitation and evaluation. The overall
objective of this audit was to determine if the FDIC (1) achieved adequate price competition
in its contract solicitation process in order to obtain fair and reasonable prices for goods and
services and (2) complied with the FDIC Acquisition Policy Manual (APM) solicitation and
proposal evaluation requirements. Details on our objective, scope, and methodology are
presented in Appendix I. In relation to compliance with APM solicitation and evaluation
requirements, we have issued a separate memorandum to management, addressing
improvements needed in the documentation of solicitation activities and market research.
The improvements are related to isolated instances of noncompliance with documentation
requirements that did not warrant recommendations or inclusion in this report.


BACKGROUND

The FDIC Division of Administration’s (DOA) Acquisition Services Branch (ASB) has
overall responsibility for the acquisition process. The APM describes the FDIC’s acquisition
process and contains guidance related to the solicitation and award of contracts for goods and
services to ensure the best value for the FDIC.

The APM requires the Contracting Officer (CO) to prepare the solicitation package using
information received from the program office requesting the goods or services and
appropriate standard solicitation documents. The CO tailors the Request for Proposal (RFP)
to the specific requirements of the procurement. Proposals received are evaluated in
accordance with the evaluation criteria stated in the RFP. The proposal evaluation is the
process of assessing each offeror’s ability to successfully perform the FDIC’s stated
requirements. Therefore, the criteria must be defined in enough detail in the RFP to provide
offerors a reasonable opportunity to understand the basis of the evaluation. Technical
proposals are evaluated by a Technical Evaluation Panel (TEP) established for each contract,
and price proposals are evaluated by the CO and TEP. The CO is responsible for ensuring
adequate contract price competition. APM Paragraph 4.D.5.a. states that adequate price
competition is obtained when competitive proposals are solicited and the solicitation has
identified price as an evaluation criterion. To promote competition, the CO should solicit at
least three sources. In circumstances where the FDIC is unable to compete its requirements
and the contract is over $5,000, the program office is required to prepare a Justification for
Noncompetitive Procurement, in accordance with APM Paragraph, 2.J.1.

A price reasonableness determination is important to ensure that the FDIC does not pay
prices that are exorbitant or not in line with the general marketplace. Price competition
normally ensures reasonable prices, but there are instances when competitive pressures are
not sufficient to ensure reasonable prices. APM Paragraph 4.D.5.a. specifies the following
four methods for the CO to use when determining price reasonableness:

            1. Compare each price with the same or similar items or services in comparable
               quantities acquired under previous or existing contracts.
            2. Compare proposed prices with the FDIC cost estimate and the CO’s personal
               knowledge of the item being procured, or any other reasonable basis.
            3. Verify that law or regulation sets prices when that claim is made.
            4. Compare proposed prices with competitive published catalogs or lists,
               published market prices or commodities, similar indices, and discount or
               rebate arrangements.

All price analysis techniques should rely on data obtained from sources other than the
offeror.

The FDIC has the option to obtain goods and services by placing orders against the General
Services Administration’s (GSA) Multiple Award Schedule (MAS) contracts. MAS
contracts offer a simplified process for obtaining commonly used commercial goods and
services from commercial firms at “most favored customer” pricing. Quantity discounts may
also be available. While MAS contractors may accept any size order, each MAS contract has
an established maximum order threshold. The maximum order threshold is the dollar-value
threshold at which the ordering activity must seek additional price reductions for its
requirement. The maximum order varies from contract to contract and is listed in GSA
Advantage!®1 and every GSA contractor's pricelist. Additionally, in accordance with the
Federal Acquisition Regulation (FAR) 8.404(b) (3), the maximum order threshold represents
the point at which it is advantageous for customers to seek price reductions. The FAR is not
applicable to the FDIC but is applicable to most other federal agencies.

From October 1, 2003, through January 4, 2005, the FDIC awarded 237 contracts, totaling
$252.5 million, with gross purchase order amounts over $100,000. The FDIC competed 199
of the contracts, totaling $230.6 million, and did not compete 38 of the contracts, totaling
$21.9 million. Appendix II provides details on the 17 competitive and 6 noncompetitive
contracts reviewed during this audit.


1
 GSA Advantage!® is a GSA online shopping and ordering system that provides access to contractor-provided
services and products. Only a federal government employee with a government-wide SmartPay purchase card
or a GSA Activity Address Code may shop on GSA Advantage!.®


                                                    2
RESULTS OF AUDIT

ASB generally complied with the APM’s solicitation and evaluation requirements for the
competitive and noncompetitive procurements. Furthermore, ASB achieved adequate price
competition for the purpose of obtaining fair and reasonable prices. However, the FDIC did
not always request price reductions on procurements through GSA’s MAS program.
Requesting price reductions from MAS contractors could result in more favorable pricing
due to market fluctuations that cause discounts to be offered.


REQUESTING PRICE REDUCTIONS ON GSA MAS CONTRACTS

The FDIC requested price reductions on only one of the seven contracts in our sample that
had been awarded through the GSA’s MAS program and that exceeded the MAS maximum
order threshold. APM guidance does not require that price reductions be routinely requested
from a MAS contractor on orders exceeding the maximum order threshold. Consequently,
the FDIC may not be taking full advantage of additional discounts that may be offered as a
result of competition, technological changes, and other factors in the commercial
marketplace.

Guidance for Seeking Pricing Discounts

GSA MAS Program Guidance. The FDIC frequently uses GSA’s MAS program to procure
goods and services. MAS contracts are designed to offer “most favored customer” pricing to
government agencies; however, additional quantity discounts may also be available upon
request.

GSA has stated that it is a proven best practice for ordering activities to seek additional price
reductions/increased discounts and/or concessions when placing an order under a MAS
contract. Contractors will often reduce prices on a MAS contract to obtain a large order.
However, MAS contractors are not required to pass on to all MAS program users a price
reduction that had been extended only to an individual customer for a specific order.

Reasons to seek price reductions include cases in which the ordering activity has determined
that a service or product is available elsewhere at a lower price or when establishing blanket
purchase agreements (BPAs) to fill recurring requirements. The potential volume of orders
under BPAs offers the opportunity to secure price reductions or increased discounts,
regardless of the size of individual orders. Ordering activities using the MAS program
should also seek price reductions when the annual review of a BPA determines that estimated
quantities or amounts have been exceeded.

GSA advises ordering activities to seek further price reductions when the maximum order
threshold has not been reached but requirements warrant a reduction in price. Price
reductions allow ordering activities to take advantage of the flexible and dynamic pricing in
the commercial marketplace. By requesting a price reduction, an ordering activity can
maximize its use of MAS contracts by taking advantage of such factors as a competitive


                                                3
environment, technological changes, labor conditions, supply and demand, industry sales
goals, and inventory reductions.

FAR Guidance. For orders exceeding the maximum order threshold, the FAR instructs
customers to generally seek price reductions from MAS program contractor(s) appearing to
provide the best value (considering price and other factors). Additionally, agencies are
encouraged and empowered to seek price reductions, not only for orders over the maximum
order threshold but also for orders below the threshold (when circumstances warrant) in order
to ensure that when using MAS contracts, the best value is obtained at the lowest overall
cost.

The FDIC’s APM. The APM acknowledges the benefit of seeking price reductions for
orders over the maximum order threshold. However, the APM does not require the CO to
routinely seek price reductions on GSA’s MAS contracts that exceed the maximum order
threshold, or in other appropriate circumstances, as discussed in the GSA MAS guidance.

APM Paragraph 4.I.4.c. states that the CO may seek price reductions on orders exceeding the
maximum order threshold from the MAS program contractor(s) appearing to provide the best
value (considering price and other factors) and may place the order with the contractor that
provides the best value and lowest overall cost alternative after seeking price reductions.

In response to the ordering activity's request for a price reduction, the contractor may offer a
lower price, offer the current MAS contract price, or decline the order. If further price
reductions are not offered, the order may still be placed if the ordering office determines that
it is appropriate because GSA has already determined that the MAS contract prices are fair
and reasonable.

FDIC MAS Contract Awards

As of January 4, 2005, the FDIC had 128 active contracts that exceeded the MAS $500,000
maximum order threshold. The total value of these contracts was about $325 million. Our
sample of 17 contracts included 7 contracts that exceeded the maximum order threshold. The
7 contracts, with a total value of $33.0 million, represented approximately 10 percent of the
total dollar value of FDIC contracts for the period reviewed.

For those seven contracts, we did not find evidence in the contract files to suggest that the
contract prices were unreasonable. However, the FDIC requested a price reduction on only
one contract, and the winning bidder had not reduced its price.

The ability to seek additional price reductions and concessions allows the government not
only to leverage its combined requirements to obtain favorable prices, terms, and conditions
but also to leverage agency requirements to take advantage of quantity or spot discounts
available in a fluid, commercial pricing environment.

Furthermore, the Government Accountability Office (GAO) recently concluded that GSA
cannot be sure that fair and reasonable prices have been negotiated on GSA MAS contracts.
GAO’s report, Opportunities to Improve Pricing of GSA Multiple Award Schedule Contracts,


                                               4
GAO-05-229, dated February 11, 2005, states that 37 (about 60 percent) of the 62 contracts
awarded or extended during 2003 (at 7 MAS acquisition centers) lacked sufficient
documentation to clearly establish that contracts had been effectively negotiated.
Specifically, the contract documentation did not establish that negotiated prices had been
based on accurate, complete, and current vendor information; adequate price analyses; and
reasonable price negotiations. Without an underlying assurance of negotiated low prices,
GAO concluded that MAS users could be overpaying for goods and services before quantity
discounts are applied.

Unless the FDIC routinely requests discounts on purchases in excess of the maximum order
threshold on MAS contracts, the Corporation may not be taking full advantage of additional
discounts that may be offered as a result of competition, technological changes, and other
factors in the commercial market place.

Recommendation

We recommend that the Director, DOA, revise the APM to require the CO to seek price
reductions on contracts awarded through GSA’s MAS program unless there are extenuating
circumstances, or based on price analysis or other assessment, the CO determines that the
MAS contract price represents the best value at the lowest possible price. In such cases, the
CO should be required to document the reason for not seeking a price reduction.


CORPORATION COMMENTS AND OIG EVALUATION

On August 4, 2005, the Director, DOA, provided a written response to the draft report. The
response is presented in its entirety in Appendix III. DOA did not agree that the APM should
be revised. DOA stated that discounts from the GSA schedule prices should not be requested
in all situations. However, DOA agreed that GSA prices should be carefully evaluated and
that the FDIC cannot assume that GSA prices offer the best value for the FDIC’s
requirements. DOA also agreed that the CO must adequately document the basis for
determining that prices were fair and reasonable and that the best value for the FDIC was
obtained. Accordingly, the ASB Associate Director has formally reminded all ASB
personnel of their responsibility to carefully evaluate all prices being offered and to provide
adequate documentation that the price is fair and reasonable.

In addition, DOA responded that ASB has recently established a training program for
contracting personnel that includes a formal class in price evaluation. This training is
designed to help improve the ability of ASB personnel to make sound evaluations of price
reasonableness based on the unique circumstances of each negotiation.

DOA’s planned alternative corrective actions are responsive. The recommendation is
resolved, dispositioned, and closed. Appendix IV contains a summary of management’s
response to our recommendation.




                                              5
                                                                                   APPENDIX I


                     OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of this audit was to determine whether the FDIC (1) achieved adequate price
competition in its contract solicitation process in order to obtain fair and reasonable prices for
goods and services and (2) complied with the APM solicitation and proposal evaluation
requirements. We performed the audit from September 2004 through May 2005 in
accordance with generally accepted government auditing standards.

Scope

For this audit, we judgmentally selected a sample of 17 contracts awarded from October 1,
2003 through January 4, 2005 and valued at $2 million or more, to determine whether the
FDIC had complied with the most significant APM requirements relating to the contract
solicitation and evaluation process. Two contracts were eliminated from our sample because
they had been the subjects of prior OIG reviews.

We also selected six noncompetitive procurements for review to determine whether they had
been properly justified in accordance with the FDIC’s APM, Chapter 4, Section 4.G,
Justification for Noncompetitive Procurements (JNCP).

We used computer-based data from the FDIC’s Contract Monitoring Information Application
report system (a tracking system for all FDIC contracts) to select our sample. We used the gross
purchase order amounts as the source for our sample selection. We assessed the reliability of the
gross purchase order amount data elements by comparing a sample of data to source documents.
We determined that the data was sufficiently reliable for the purposes of this assignment. No
other computer-based data was used in this audit.

Details on our samples are contained in Appendix II.

Methodology

For the sampled contracts, we determined whether the FDIC:

   •    included a price reduction clause in the technology contracts;

   •    had an adequate basis for selecting the winning bidder;

   •    held discussions with, and solicited best and final offers from, offerors and if so, the
        savings that resulted;

   •    requested price reductions after initial evaluations of the proposals for contracts
        procured through the GSA MAS program;




                                                6
                                                                              APPENDIX I


   •   had solicitation and procurement evaluation practices that were consistent with other
       best practices in the federal government and private industry; and

   •   complied with the APM regarding the contracting solicitation and proposal evaluation
       phase.

Additionally, we compared the documents in the contract file folders to APM requirements
for 14 significant solicitation attributes and 34 significant evaluation attributes.

We judgmentally selected six contracts to determine if the program office and the CO
conducted market research in order to identify possible sources for the goods or services
required and to determine if the results had been documented and submitted with the JNCP.
We have issued a separate memorandum to management, addressing the documentation of
solicitation activities and market research.




                                             7
                                                                                            APPENDIX II


                                             SAMPLE SELECTION

Initially, we judgmentally selected for review 17 contracts (each valued at $2 million or more)
from the period October 1, 2003 through January 4, 2005 (see Table 1). Two of the seventeen
contracts had been the subjects of prior OIG audits. Seven of the original 17 contracts had
been awarded using the GSA MAS.

Table 1: Competitive Contracts Sampled
                                                  Gross Purchase Order Amount
    Contractora




                                                             Applicable Audit Area
                                              Adequate Price     Compliance With            Sample of
                   FDIC          Total         Competition       APM Solicitation           Contracts
                  Divisionb     Sample                            and Evaluation          Awarded Using
                                                                   Requirements            GSA MAS
    1             DOA          $26,411,939        $26,411,939         $26,411,939                       0
    2             DITc         $19,818,737        $19,818,737                    0                      0
    3             DRRd         $15,715,080        $15,715,080                    0                      0
    4             DITd         $12,250,468        $12,250,468         $12,250,468             $12,250,468
    5             DITc          $9,630,623         $9,630,623                    0                      0
    6             DIT           $5,923,203         $5,923,203                    0             $5,923,203
    7             DIT           $5,671,801         $5,671,801          $5,671,801                       0
    8             DIT           $4,950,000         $4,950,000          $4,950,000                       0
    9             DRR           $4,576,985         $4,576,985          $4,576,985              $4,576,985
    10            DIT           $4,518,300         $4,518,300          $4,518,300                       0
    11            DRR           $4,466,480         $4,466,480          $4,466,480                       0
    12            DRR           $3,370,672         $3,370,672          $3,370,672              $3,370,672
    13            DIT           $3,344,547         $3,344,547          $3,344,547                       0
    14            DIT           $3,036,268         $3,036,268          $3,036,268                       0
    15            DIT           $2,560,744         $2,560,744          $2,560,744              $2,560,744
    16            DIT           $2,386,269         $2,386,269          $2,386,269              $2,386,269
    17            DIT           $2,000,000         $2,000,000          $2,000,000              $2,000,000
         Total                $130,632,116       $130,632,116         $79,544,473             $33,068,341
Source: We selected our sample from the FDIC’s Contract Monitoring Information Application report dated
January 4, 2005.

a
  Names of contractors and contract numbers will be provided under separate cover.
b
  FDIC division: DOA – Division of Administration
                    DIT – Division of Information Technology
                    DRR – Division of Resolutions and Receiverships
c
  This contract was the subject of a prior OIG audit and was therefore excluded from the portion of our review
  dealing with compliance with the APM. Audit report titles will be provided under separate cover.
d
  This contract file was not complete and could not be used in determining compliance with APM requirements.




                                                       8
                                                                                      APPENDIX II

We judgmentally selected six noncompetitive contracts (see Table 2) to determine whether
the program office and the CO conducted market research in order to identify possible
sources for the goods or services required and whether the results had been documented and
submitted with the Justification for Noncompetitive Procurement. Our audit did not disclose
any significant reportable conditions related to noncompetitive procurements. However, we
brought an issue related to file documentation to management’s attention in a separate
memorandum.


      Table 2: Noncompetitive Contracts Sampled
                                                                             Gross Purchase
       Contractor*                Procurement Description                    Order Amount
       1               To provide Westlaw database services.                     $1,239,000

       2               Technical support related to the Control Totals               $530,199
                       Module (CTM) Project and other DOF systems as
                       required.
       3               Ongoing operational, technical, and programming               $500,000
                       support for the Documentum environment.
       4               Mainframe disk storage maintenance service.                   $237,764
       5               Information technology consulting and research                $193,501
                       services.
       6               Enterprise Architecture consulting services.                  $158,400
               Total                                                               $2,858,864
      Source: Judgmental sample of noncompetitive contracts from the FDIC’s Contract Monitoring
      Information Application Report, dated November 1, 2004.
      *
        Names of contractors and contract numbers will be provided under separate cover.




                                                  9
                       Appendix III


CORPORATION COMMENTS
     APPENDIX III




11
                                                                                                                                                   APPENDIX IV


                                                     MANAGEMENT RESPONSE TO RECOMMENDATION
     This table presents the management response on the recommendation in our report and the status of the recommendation as of the date of
     report issuance.
                                                                                                                                                               Open
      Rec.                                                                         Expected            Monetary       Resolved:a      Dispositioned:b           or
     Number              Corrective Action: Taken or Planned/Status             Completion Date        Benefits       Yes or No         Yes or No             Closedc
                      DOA formally reminded all ASB personnel of their
            1         responsibility to evaluate all prices being offered and        N/A                   $0             Yes               Yes               Closed
                      to provide adequate documentation that the price is
                      fair and reasonable.

                      ASB established a training program for contracting
                      personnel that includes a formal class in price
                      evaluation.

     a
         Resolved –      (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation
                         (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                         (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as
12




                             long as management provides an amount.
     b
       Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
     through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
     recommendation.
     c
         Once the OIG dispositions the recommendation, it can then be closed.
